                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT NIEMORANDUM




          The plagiarism in this case consisted of a short paragraph of verbatim text taken from a chapter
          written by the subject's (deceased) Ph.D. advisor, and used in the subject's' proposal to NSF.~
          The source document reference3was included in the list of references, but no direct citation was
          given. The subject was involved with the work described in the article, but not listed as an
          author on that chapter; his own chapter immediately precedes the source document chapter in the
          edited volume. The text cited is a summary of the research field, and the subject plausibly asserts
          that he has used this and similar words repetitively in multiple documents. The absence of a
          direct citation is an omission admitted by the subject. We composed a letter to the subject with a
          reminder of the need for proper scholarship in proposals submitted to NSF.

          Accordingly, this case is closed.




NSF OIG Form 2 ( 1 1/02)
